FILED
SUPREME COURT
STATE OF WASHINGTON
3/9/2020
BY SUSAN L. CARLSON
CLERK

IN THE SUPREME COURT OF THE STATE OF WASHINGTON

In the Matter of the Personal Restraint of:
No. 9 7 8 4 5 -0
EDWARD JAMES WILKINS,

Court of Appeals No. 53385-5-II

Petitioner.

RULING DENYING REVIEW

Edward Wilkins was convicted in 2015 of first degree rape of a child and first
degree child molestation. Division Two of the Court of Appeals affirmed the
convictions on direct appeal, and this court denied review. Mr. Wilkins timely filed a
personal restraint petition in the Court of Appeals, but finding no basis for relief, the
court denied the petition in an unpublished opinion. Mr. Wilkins now seeks this court’s
discretionary review, which the State opposes. RAP 16.14(c).
To obtain this court’s review, Mr. Wilkins must show that the Court of Appeals
decision conflicts with a decision of this court or with a published Court of Appeals
decision, or that he is raising a significant constitutional question or an issue of
substantial public interest. RAP 13.4(b); RAP 13.5A(a)(l), (b). Mr. Wilkins offers no
specific analysis of the Court of Appeals decision showing how any of these criteria for
review applies, and indeed he does not cite these criteria at all. At best, he asserts he is
raising issues of constitutional magnitude (deficient charging document and ineffective

Filed
Washington State
Court of Appeals
Division Two
October 15, 2019

IN THE COURT OF APPEALS OF THE STATE OF WASHINGTON
DIVISION II
In the Matter of the
Personal Restraint of

No. 53385-5-H

EDWARD JAMES WILKINS,
Petitioner.
UNPUBLISHED OPINION

Lee, A.C.J. — Edward Wilkins seeks relief from personal restraint imposed as a result of
his 2015 convictions for first degree rape of a child and first degree child molestation. We issued
the mandate of Wilkins’s direct appeal on March 19, 2018. His petition, received on March 21,
2019, was placed in the prison mail system on March 19, 2019, making his petition timely filed
under GR 3.1 andRCW 10.73.090(3)(b).
A.

Amended Information
Wilkins argues that the amended information adding the charge of first degree child

molestation was constitutionally deficient. Where, as here, the validity of the information was not
challenged at trial, the defendant must show that (1) the essential elements do not appear in any
form, or by . fair construction, in the information and (2) that he was actually prejudiced by the
language of the information. State v. Kjorsvik, 117 Wn.2d 93,105-06, 812 P.2d 86 (1991).
A person is guilty of child molestation in the first degree when the person has, or
knowingly causes another person under the age of eighteen to have, sexual contact

No. 53385-5-H
with another who is less than twelve years old and not married to the perpetrator
and the perpetrator is at least thirty-six months older than the victim.
RCW 9A.44.083(1).
The amended information charging Wilkins with first degree child molestation alleged:
The defendant, in the County of Cowlitz, State of Washington, on, about,
or between 01/01/2007 and 03/16/2008, being at least thirty-six months older than
Jane Doe, DOB 07/08/2004, did engage in sexual contact with Jane Doe, a person
who was less than twelve years of age and not married to the defendant, contrary
to RCW 9A.44.083 and against the peace and dignity of the State of Washington.
Pet., App. A, at 1. Thus, this information alleges all of the essential elements of the crime and is
therefore valid.
Wilkins appears to be under the misapprehension that the child molestation charge had to
allege an act separate and distinct from the alleged act of rape of a child. But as explained in his
direct appeal, State v. Wilkins, 200 Wn. App. 794, 807-08, 403 P.3d 890 (2017), review denied,
190 Wn.2d 1004 (2018), the State can charge and convict a defendant of both rape of a child and
child molestation for the same act.
B.

Ineffective Assistance of Counsel
Wilkins argues that his trial counsel provided ineffective assistance of counsel.

To

establish ineffective assistance of counsel, Wilkins must demonstrate that his counsel’s
performance fell below an objective standard of reasonableness and that as a result of that deficient
performance, the result of his case probably would have been different. State v. McFarland, 127
Wn.2d 322, 335-36, 899 P.2d 1251 (1995); Strickland v. Washington, 466 U.S. 668, 687, 104 S.
Ct. 2052, 80 L. Ed. 2d 674 (1984). We presume strongly that trial counsel’s performance was
reasonable. State v. Grier, 171 Wn.2d 17, 42, 246 P.3d 1260 (2011).

2

No. 53385-5-H
Wilkins argues that his trial counsel provided ineffective assistance of counsel when he did
not object to those portions of the victim’s child hearsay statement that referred to acts Wilkins
committed against other children. But Wilkins’s trial counsel objected to the admission of the
child hearsay statement under former RCW 9A.44.120 (1995) and State v. Ryan, 103 Wn.2d 165,
172, 691 P.2d 197 (1984), and the trial court overruled the objection and admitted the evidence.
Wilkins’s trial counsel also objected under ER 404(b) to those portions of the statement that
referred to acts Wilkins committed against other children. The trial court overruled that objection
and we affirmed, holding that the trial court did not abuse its discretion in ruling that ER 404(b)
did not apply because the statements went not to the defendant’s propensity to commit other bad
acts but to the victim’s state of mind. Wilkins, 200 Wn. App. at 814-15. Wilkins now appears to
argue that his trial counsel should also have objected on grounds of hearsay. But given that the
trial court had ruled that the statements went to the victim’s state of mind, Wilkins does not show
that not additionally objecting on grounds of hearsay was below an objective standard of
reasonableness. Wilkins fails to show ineffective assistance of counsel.
Wilkins also argues that his trial counsel provided ineffective assistance of counsel by
agreeing to the admission of the video containing the victim’s child hearsay statement. But trial
counsel’s objection to the admission of the child hearsay statement had been overruled. Wilkins
does not show that his counsel had any valid grounds for additionally objecting to the video of the
statement and so does not show ineffective assistance of counsel.
Finally, Wilkins argues that his trial counsel provided ineffective assistance of counsel by
not calling as witnesses two women, Crystal Clark and “Shawna,” who would have testified that

3

No. 53385-5-n
Wilkins did not have herpes in 2008,1 Pet., App. B, at 5. But Wilkins does not show how either
of these women could have been competent witnesses to render such a medical diagnosis and so
does not show ineffective assistance of counsel.
CONCLUSION
Wilkins does not present grounds for relief from restraint. We, therefore, deny his petition.
A majority of the panel having determined that this opinion will not be printed in the
Washington Appellate Reports, but will be filed for public record in accordance with RCW 2.06.040,
it is so ordered.

ye, a.c.j.
We concur:

WDRSWICK, J. U

MELNICK, J.

i

J

The State established that the victim had contracted herpes in 2008 when the child rape and child
molestation occurred. Wilkins, 200 Wn. App. at 799-801.
4

filed
SUPREME COURT
STATE OF WASHINGTON
6/3/2020
BY SUSAN L. CARLSON
CLERK

THE SUPREME COURT OF WASHINGTON
In re the Personal Restraint Petition of
EDVARD JAMES WILKINS,
Petitioner.

Department I of the Court,

)
)
)
)
)
)
)

No. 97845-0
ORDER
Court of Appeals
No. 53385-5-II

composed of Chief Just.ee Stephens and Justices John

son,

Owens, Gordon McCloud and Montoya-Lewis,

considered this matter at its June 2, 2020, Motion
Calendar and unanimously agreed that the following order be entered.
IT IS ORDERED:
That the Petitioner’s motion to modify the Deputy Commissioner’
s ruling is denied.
DATED at Olympia. Washington, this 3rd day of June, 2020.
For the Court

^

CHIEF JUSTICE”?*

H

irw ~~

7”

£

t

143018’

>p~uifjuo oocnujei4u

u

r**

FILED
SUPREME COURT .
STATE OF WASHINGTON
3/7/2018
BY SUSAN L. CARLSON
CLERK

THE SUPREME COURT OF WASHINGTON
STATE OF WASHINGTON.
Respondent,
v.
EDWARD JAMES WILKINS,
Petitioner.

)
)
)
)
)
)
)
)
)
)
)
)

No. 95250-7
ORDER
Court of Appeals
No. 47835-8-II

Department II of the Court, composed of Chief Justice Fairhurst and Justices Madsen,
Stephens, Gonzalez and Yu, considered at its March 6,2018, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 7th day of March, 2018.
For the Court

~TQAa 1aaaas&1-.
CHIEF JUSTICE

ca

Law Office of Skylar Brett
P.O. Box 18084 Seattle, WA 98118

March 7, 2018
Edward Wilkins/DOC#856755
Stafford Creek Corrections Center
191 Constantine Way
Aberdeen, WA 98520
LEGAL MAIL
Re:

State v. Edward Wilkins
SUPREME COURT NO. 95250-7
SUP. CT. NO. 14-1-01082-3; COA NO. 47835-8-II

Mr. Wilkins
Please find enclosed a copy of order denying the petition for review. Unfortunately, this
means that the Supreme Court has decided not to take your case. I am sorry that your
case turned out the way that it did.
This ends my work on your case. You have one year from the date of this ruling to file a
Personal Restraint Petition (PRP), if you choose to do so. I will not be able to help you
with a PRP since I was only appointed to represent you for your direct appeal. I can
send you the form to file your own PRP if you ask me to do so.
You also may be able to take your case to federal court but I cannot advise you about
that process.
Please let me know within 30 days if you want the materials from my file. If I don’t hear
from you, I will dispose of them for you.
I wish you the best of luck in the future. Please contact me if you have any questions.
Sincerely,

Skylar T. Brett
Attorney at Law

Phone: (206) 494-0098 Toll-free: (866) 572-7987
Email: skylarbrettlawoffice@gmail.com

